                                                               UNCLASSIFIED


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General




                                                       Office of Audits
Office of Inspector General



                                              Limited-Scope Audit of
                                         Department of State Management
                                         of the Afghanistan Civilian Uplift


                                              Report Number AUD/SI-12-36, May 2012




                                                               Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be
                              made, in whole or in part, outside the Department of State or the Broadcasting Board
                              of Governors, by them or by other agencies of organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be
                              determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
                              disclosure of this report may result in criminal, civil, or administrative penalties.



                                                              UNCLASSIFIED
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                   UNCLASSIFIED

_______________________________________________________________________
Acronyms
DS         Bureau of Diplomatic Security
FAH        Foreign Affairs Handbook
FAM        Foreign Affairs Manual
GEMS       Global Employment Management System
GFMS       Global Financial Management System
HR         Bureau of Human Resources
OIG        Office of Inspector General
RM         Bureau of Resource Management
SCA        Bureau of South and Central Asian Affairs
SIGAR      Special Inspector General for Afghanistan Reconstruction
S/SRAP     Office of the Special Representative for Afghanistan and Pakistan




                                   UNCLASSIFIED
                                                          UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................3

Objective……. .................................................................................................................................6

Audit Results ..................................................................................................................................6
       Accounting, Management, and Reporting of Afghanistan
       Civilian Uplift Costs ............................................................................................................6
       Accounting for and Reporting Security Costs ..................................................................10

Other Matters ................................................................................................................................13
       Management Controls Over Staffing Complement of Department Civilian
       Personnel Assigned to Afghanistan ...................................................................................13

Management’s Additional Comments to Report and Office of Inspector General Responses......14

List of Recommendations ..............................................................................................................15

Appendices
      A. Scope and Methodology...............................................................................................16
      B. Secretary of State Special Representative for Afghanistan and Pakistan Response ....18
      C. Bureau of Diplomatic Security Response ....................................................................20
      D. Bureau of Resource Management Response ................................................................23

Major Contributors to This Report ................................................................................................32




                                                          UNCLASSIFIED
                                               UNCLASSIFIED


                                           Executive Summary
        The U.S. Strategy in Afghanistan introduced in 2009 focused on disrupting, dismantling,
and defeating al-Qaeda and denying access to safe havens. A key element of this strategy has
been the expansion of civilian-led efforts aimed at building Afghanistan governing capacity at all
levels; improving the rule of law; and initiating sustainable economic growth, primarily through
agricultural development. A significant increase, or “uplift,” in U.S. civilian employees
deployed to Afghanistan is intended to support this effort. To bolster the civilian-led efforts,
along with program operations and foreign assistance for Afghanistan, Congress provided the
Department of State (Department) supplemental funding in the Diplomatic and Consular
Programs appropriation.

        A September 2011 audit report 1 prepared jointly by the Special Inspector General for
Afghanistan Reconstruction (SIGAR) and the U.S. Department of State, Office of Inspector
General (OIG), determined that approximately $2 billion had been expended on “civilian uplift”
efforts since the uplift’s inception in January 2009 and that the Department should strengthen its
oversight of funds transferred to other agencies. During the audit, OIG identified issues outside
the original audit scope that warranted further examination specific to the Afghanistan payroll,
Bureau of Diplomatic Security (DS) fund controls, and the Mission Afghanistan staffing
complement. Therefore, OIG conducted this audit to determine the effectiveness of the
Department’s accounting, management, and reporting of Afghanistan civilian uplift costs
specific to payroll operations; DS controls over funds; and management controls over the
Department’s Afghanistan civilian staffing complement.

         OIG found that the Bureau of South and Central Asian Affairs (SCA) had used restricted
funds 2 to reimburse the American Salaries Account, as defined in the Foreign Affairs Handbook
(FAH), 3 for the payroll costs of civilian uplift personnel who had left Afghanistan and were
transitioning to their next assignments. The costs included only transitioning costs for personnel
after they had left Afghanistan but did not include costs incurred before the personnel had
arrived in Afghanistan, such as the costs of specialized Afghanistan training. This condition
occurred because the Department, specifically the Bureau of Human Resources (HR), had not
modified its routine payroll reimbursement procedures and instructed bureaus and posts to
immediately update the Global Employment Management System (GEMS) by changing the

1
  The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and State Should Continue to Strengthen Its
Management and Oversight of the Funds Transferred to Other Agencies (SIGAR Audit-11-17 & State OIG
AUD/SI-11-45 Civilian Uplift, Sept. 8, 2011).
2
  The funds used were designated to support operations and security requirements in Afghanistan, Pakistan, and Iraq,
in addition to supporting increased requirements for certain global activities, including Envoys and Special
Representatives–Operations, Public Diplomacy–Arab Youth Programs, and Worldwide Security Protection (H.R.
Conf. Rep. No. 111-151, 111th Cong., 1st Sess., Title XI, “Department of State,” (2009)). OIG found that none of
the sampled cases it reviewed met the aforementioned uses.
3
  6 FAH-5 H-809.1-7(a), “ICASS Financial Procedures–Budget Development-American Salaries (AmSal),” states,
“The American Salaries account is centrally managed by [the Bureau of Resource Management, Budget and
Planning] to cover the salaries, benefits . . . and, where applicable, post hardship differential costs of permanent,
full-time U.S. citizen employees. The account is centrally estimated and managed based on liquidations posted each
pay period. The variability of U.S. citizen personnel cost elements and their dispersion over approximately 260
locations abroad precludes individual bureaus or posts from budgeting and managing their own salaries and benefits
on an obligation basis.”

                                                    1
                                               UNCLASSIFIED
                                             UNCLASSIFIED

organization code to identify the posts for incoming and departing Afghanistan civilian uplift
personnel. As a result, by following its routine procedures to reimburse the payroll costs during
the period in which an employee was transitioning to a new post, the Department used funds that
were designated to “support operations and security requirements for Afghanistan, Pakistan, and
Iraq,” in addition to supporting increased requirements for certain global activities, including
“Envoys and Special Representatives–Operations, Worldwide Security Protection, and Public
Diplomacy–Arab Youth Programs,” 4 which did not meet the Congressional intent of the
appropriation.

        OIG found that DS did not implement an account structure to budget and account for
expenditures made from supplemental appropriations of $116.5 million received in June 2009
designated for security programs in Afghanistan. This occurred because the Bureau of Resource
Management (RM) had not established policies and procedures that required DS to account for
security costs using a designated country code for Afghanistan. Federal appropriations law 5
requires that appropriations be applied only to the objects for which the appropriations were
made. Without a designated country code for Afghanistan, DS could not verify that the
supplemental funds were available, expended, or used for their intended purpose. Subsequent to
its audit fieldwork, OIG learned that RM had established a new mechanism to track and account
for security costs for Afghanistan and other front-line states. This mechanism mandates the use
of project codes for tracking obligations and costs. Increased guidance is needed, however, to
ensure users in the bureaus understand the new methodology and are using it consistently.

       During its fieldwork of the joint audit of the civilian uplift with SIGAR, OIG found that
the Department’s Afghanistan civilian staffing complement was not always accurate, complete,
or updated, as required by the FAH. 6 OIG found that 67 personnel (or 14 percent) of 496
personnel assigned to Afghanistan were not included on the master list of Department civilian
personnel in-country. The discrepancies occurred because SCA’s newly implemented database,
the Afghanistan Civilian Personnel Tracking System, was not accurate or complete and
improvements were needed. Without an accurate number of civilian personnel staffing in
Afghanistan, there was an increased risk that civilian personnel in Afghanistan might not be
properly accounted for in the event of an emergency evacuation. OIG subsequently discussed
this matter with SCA officials, who stated that the database was being perfected so that the
reported Department civilian personnel assigned to Afghanistan could be tracked accurately.

        OIG made recommendations for SCA, HR, DS, and RM to improve the accounting,
management, and reporting of Afghanistan civilian uplift costs specific to payroll operations and
security costs and funds control.



4
  H.R. Conf. Rep. No. 111-151, Title XI, “Department of State,” Table “Diplomatic and Consular Programs.”
5
   31 U.S.C. § 1301(a).
6
  12 FAH-1 Annex K 2.3, “Drawdown and Evacuation–Organizing for the Drawdown,” provides guidance to posts
on the development of Emergency Action Plans (EAP) to include requirements for transmitting “up-to-date staffing
pattern to post’s regional bureau, including a breakdown of employees and family members . . . and the names of
TDY personnel.” Posts should also indicate “number of employees out of country and their status (TDY, annual
leave, home leave, R&R).” Also, 12 FAH-1 H-036(a), “Post Planning–Periodic Revisions and Updates,” states
that posts “must conduct a comprehensive review of their entire EAP and update it annually.”

                                                  2
                                             UNCLASSIFIED
                                              UNCLASSIFIED


Management Comments

        In March 2012, OIG provided a draft of this report to SCA, HR, DS, RM, and the Bureau
of Administration. OIG received responses from the Office of the Special Representative for
Afghanistan and Pakistan (S/SRAP) (see Appendix B), which responded on behalf of SCA; from
DS (see Appendix C); and from RM (see Appendix D). HR and the Bureau of Administration
did not provide responses to the report. Therefore, the recommendations addressed to those
entities (No. 1 and No. 3, respectively) are unresolved.

       S/SRAP recommended that Recommendation 2 be “closed” because “significant
improvements” have been made in reporting employee departure dates from Afghanistan.
S/SRAP stated that the “Kabul HR and the HR Bureau have repaired a technical issue in the
systems interface,” which has resulted in “real-time reporting of departures of Foreign Service
personnel assigned to Afghanistan.” S/SRAP further stated that with “full implementation”
beginning in May 2012, all issues relating to Recommendation 2 should be resolved. OIG
considers Recommendation 2 resolved, pending further action.

       DS stated, in response to Recommendation 4, that it had already adopted a new
methodology, designed by RM, to track and account for Afghanistan costs. OIG acknowledges
the new methodology being used but is still requesting that DS provide clear guidance describing
the new policies and procedures in the Foreign Affairs Handbook. OIG considers
Recommendation 4 resolved, pending further action.

       RM requested that Recommendation 5 “be removed from the audit report,” stating that it
had “sufficient tools that enabled bureaus to track any funds by country.” OIG considers the
recommendation resolved, pending further action.

        All comments received from the bureaus have been considered and incorporated into the
report as appropriate. The bureaus’ responses to the recommendations and OIG’s replies are
presented after each recommendation. In addition, specific comments from RM are presented in
the section “Management’s Additional Comments to Report and OIG Responses.”

                                                Background
         A key element of the U.S. Strategy for Afghanistan is the expansion of civilian-led efforts
aimed at building Afghanistan governing capacity at all levels; improving the rule of law; and
initiating sustainable economic growth, primarily through agricultural development. The
Department received appropriations 7 in the Diplomatic and Consular Programs appropriation to
fund activities related to the uplift, including security and infrastructure costs. Additionally,
Congress authorized the Department to transfer appropriated funds to other Government
agencies to support operations and assistance for Afghanistan.



7
 Per 4 FAH-3 H-111(a), “Budgeting–Definitions,” an appropriation act is “[a] public law passed by Congress and
signed by the President that provides funds for committing obligations and making payments (expenditures) out of
the [U.S.] Treasury for specified purposes.”

                                                   3
                                              UNCLASSIFIED
                                               UNCLASSIFIED


Department of State Role in the U.S. Strategy for Afghanistan

         The Department is charged with conducting foreign policy and managing the civilian
uplift in Afghanistan. Congress authorized the Department to use appropriations to transfer
funds to other civilian agencies to support operations and assistance for Afghanistan. According
to Department officials, the Chief of Mission at U.S. Embassy Kabul, Afghanistan, formulates
personnel and associated budget requirements needed to fulfill the U.S. Government’s
nonmilitary strategy for Afghanistan reconstruction.

Bureau of South and Central Asian Affairs

        SCA, in conjunction with S/SRAP, is responsible for managing and overseeing the
civilian uplift in Afghanistan. SCA officials review the embassy’s staffing requirements and
coordinate within the Department and with other civilian agencies to determine the Afghanistan
staffing complement that will support the U.S. Government strategy for reconstruction in
Afghanistan. SCA requested, in the FY 2012 Congressional Budget Justification, $789.5 million
for operations in Afghanistan: $31.9 million within the core budget, which represents SCA’s
enduring effort, 8 and $757.5 million in Overseas Contingency Operations 9 funds, which
represents SCA’s civilian uplift effort. Up to $230 million of the total FY 2012 Overseas
Contingency Operations request for SCA could be made available for transfer to other Federal
agencies. Per the September 2011 joint report, 10 SCA is also the primary source of information
on civilian personnel deployed to Afghanistan and on the costs to implement and sustain the
increase of civilian personnel in Afghanistan covering FYs 2009–2012. After staffing targets are
determined, SCA officials work with officials from the other agencies to determine the funding
levels required to deploy the uplift personnel. SCA works closely with S/SRAP to manage and
oversee the civilian uplift.

Bureau of Human Resources

        HR is the personnel management arm of the Department. Among its many organizational
responsibilities, HR oversees the formulation and implementation of the human resources
policies and programs of the Department and the Foreign Service and activities of various
operating elements responsible for administering selected human resources programs of the
Department and the Foreign Service. When an employee completes an Afghanistan tour, HR
enters Standard Form (SF)-50, Notification of Personnel Action, into the Global Employment
Management System (GEMS), which supports human resources management business processes
for the Department, to initiate the employee’s next assignment. GEMS is designed to track the
progress of a personnel action from the initial request until the action has been completely
processed and made a part of the employee’s permanent employment history record. GEMS is

8
  The term “enduring” is the funding “for ongoing responsibilities and core programs and operations.” (Source: The
Secretary of State Congressional Budget Justification for Fiscal Year 2013, vol. 1: Department of State Operations.)
9
  Overseas Contingency Operations (OCO) funds are separate from the Department’s base budget (or enduring
funds) and are meant to fund the extraordinary operations in Afghanistan that are above and beyond the
Department‘s normal mission costs. As OCO funds are designed as temporary funding to meet the significant
demands of operating in Afghanistan, OCO funding will decrease as the need for resources in Afghanistan ebbs.
10
   SIGAR Audit-11-17 and State OIG AUD/SI-11-45 Civilian Uplift, Sept. 8, 2011.

                                                    4
                                               UNCLASSIFIED
                                        UNCLASSIFIED

also accessible by RM’s Global Financial Services, American Pension and Payroll Operations, in
Charleston, SC, which is responsible for processing the Department’s biweekly payroll. As part
of its normal procedures, American Pension and Payroll Operations routinely uses GEMS to
update employees’ payroll records. Once an employee’s organization code is updated in the
payroll records, the employee is no longer financially attached to the bureau from which the
employee left. Organization codes identify the benefiting organizations for cost purposes and
payroll and indicate where the managers and supervisors are located. HR also uses the
organization codes to provide official human resources statistical information to various bureaus
within the Department. Officials in RM’s Office of State Programs, Operations, and Budget
(RM/BP) rely on HR statistical information on the personnel assigned with an Afghanistan
organization code to calculate RM/BP’s estimate of funding that bureaus would need to
reimburse for the salaries and benefits of the Afghanistan civilian uplift personnel using the
Afghanistan supplemental appropriation.

Bureau of Diplomatic Security

        DS has been providing the security services for all embassies abroad and has had an
integral role in the beginning transition from a military-led to a civilian-led mission in
Afghanistan as U.S. military combat forces began their withdrawal from Afghanistan in 2011
(with completion planned for 2014). It was anticipated that the security needs in Afghanistan as
the U.S. military began its drawdown would be similar to those in Iraq, where as many as 5,500
private security contractors were needed to provide movement and perimeter security to support
Department operations. DS requested, in the FY 2012 Congressional Budget Justification,
$261 million for Worldwide Security Protection operations in Afghanistan.

Prior Audit Coverage

        In September 2011, OIG issued a joint report 11 with the Special Inspector General for
Afghanistan Reconstruction (SIGAR) that identified the number of civilian personnel and
associated costs of the civilian uplift in Afghanistan and that evaluated the Department’s
mechanisms to transfer funds to other agencies to support civilian uplift personnel. The report
stated that a significant increase, or “uplift,” in U.S. civilian personnel assigned to Afghanistan
under chief of mission authority tripled, from 320 personnel in January 2009 to 1,040 personnel
in June 2011, at a cost of nearly $2.0 billion. As the primary agency responsible for funding the
civilian uplift, the Department incurred $1.7 billion of the $2.0 billion obligated to support the
civilian uplift initiative. The funds obligated by the Department were for various costs related to
salaries and benefits, travel and transportation, housing, technology, training, and security in
Afghanistan. The report also noted a weakness in the way the Department monitored
interagency-transferred funds.




11
     Ibid.

                                             5
                                        UNCLASSIFIED
                                               UNCLASSIFIED


                                                   Objective
        The primary objective of this performance audit was to determine the effectiveness of the
Department’s accounting, management, and reporting of Afghanistan civilian uplift costs
specific to payroll operations; DS controls over funds; and management controls over the
staffing complement of Department personnel assigned to Afghanistan. The scope and
methodology for this audit are detailed in Appendix A.

                                                Audit Results

Accounting, Management, and Reporting of Afghanistan Civilian Uplift Costs

        OIG found that SCA had used restricted funds to reimburse the American Salaries
Account for the payroll costs of civilian uplift personnel who had left Afghanistan and who were
transitioning to their next assignments. The costs included only transitioning costs for personnel
after they had left Afghanistan but did not include costs incurred before the personnel had
arrived in Afghanistan, such as the costs of specialized Afghanistan training. This occurred
because the Department, specifically HR, had not modified its routine payroll reimbursement
procedures and instructed bureaus and posts to immediately update GEMS for the change in
organization code for incoming and departing Afghanistan civilian uplift personnel. As a result,
by following its routine procedures to reimburse the payroll costs during the transitioning period,
the Department used funds that were designated to “support operations in and assistance for
Afghanistan,” which did not meet the Congressional intent of the appropriation.

Federal Law and Conference Report on the Diplomatic and Consular Programs
Supplemental Appropriation

       Federal law 12 states, “Appropriations shall be applied only to the objects for which the
appropriations were made except as otherwise provided by law.” Additionally, the General
Accounting Office’s Principles of Federal Appropriations Law 13 interpreted this citation as
follows:

         Simply stated, [the Code] says that public funds may be used only for the purpose
         or purposes for which they were appropriated. It prohibits charging authorized
         items to the wrong appropriation, and unauthorized items to any appropriation.
         [Emphasis added.]

        The Afghanistan Supplemental appropriation for the Diplomatic and Consular Programs
account 14 authorized the Department to use funds appropriated to “support operations in and
assistance for Afghanistan.” Additionally, the conference report relating to Public Law 111-
32 15 included appropriated funds totaling $997.9 million for Department of State Diplomatic

12
   31 U.S.C. § 1301(a).
13
   “Principles of Federal Appropriations Law,” 3rd ed., vol. I (GAO, Jan. 2004).
14
   Pub. L. No. 111-32.
15
   H.R. Conf. Rep. No. 111-151.

                                                    6
                                               UNCLASSIFIED
                                        UNCLASSIFIED

and Consular Programs, which mirrored the funding made available in the Supplemental
Appropriation. The conference report stated that the funds would be used “to support operations
and security requirements for Afghanistan, Pakistan, and Iraq” and also would be used “to
address increased requirements for global activities.” The table titled “Diplomatic and Consular
Programs” in the conference report showed that global programs included funding for “Envoys
and Special Representatives–Operations, Worldwide Security Protection, and Public Diplomacy–
Arab Youth Programs.” According to the conference report table, the funding specifically
allocated to Afghanistan was $413.2 million, or 41 percent, of the funds appropriated.
Congressional conference reports are strong indicators of legislative intent.

Policy on Accounting for Payroll Costs

        According to an HR official, the Department accounts for payroll costs for employees
transitioning to their new assignments by charging back the transition costs to the posts that the
employees departed from until the employees’ transitioning is complete. When an employee
arrives at his or her new post, HR processes SFs-50 and inserts a new organization code onto the
form to identify a change in post. Once this change is made, the Consolidated American Payroll
Processing System associates the new organization code with the employee at his or her new
post and interfaces with GEMS to process the payroll costs accordingly. A Department official
stated that it is more efficient to allocate the costs in this manner because of the complexity of a
Foreign Service Officer’s schedule: that is, being continuously reassigned every 2 to 3 years to a
new post.

        OIG discussed the Department’s policy for accounting for payroll costs associated with
departing personnel with RM and HR officials. When requested to provide specific
documentation for the policy, neither RM nor HR could provide documentation in support of this
practice. Although the Department consistently follows this practice and generally considers the
practice to be equitable because all bureaus allocate their payroll costs in this manner, OIG
considers the policy to be informal because the policy has not been documented and formally
approved by Department management.

Afghanistan Payroll Testing

        OIG found that SCA had reimbursed the American Salaries Account for the payroll costs
related to the civilian uplift personnel who had left Afghanistan and who were transitioning to
their next assignments. The payroll costs included transitioning costs for personnel after they
had left Afghanistan but did not include costs incurred before they had arrived in Afghanistan.
For Afghanistan, front-end costs included required specialized training courses, such as the DS
Foreign Affairs Counter Threat Training; the Afghanistan Familiarization course; and, for those
personnel assigned to field positions, the Afghanistan Provincial Reconstruction Team
Orientation and Interagency Integrated Civilian Military Training Exercise for Afghanistan.

      OIG judgmentally selected for review the payroll records for personnel assigned to
Afghanistan for pay period No. 2 (January 16-29, 2011) in Calendar Year 2011. The payroll




                                             7
                                        UNCLASSIFIED
                                             UNCLASSIFIED

consisted of 513 records. Of the 513 records, 473 records were for Department personnel. 16
Further analysis of the 473 records determined that 17 records were for Department employees
who had left Afghanistan and who were transitioning to new posts. However, these 17
employees were provided remuneration for salary and benefits from the supplemental
appropriation supporting Afghanistan. OIG identified the 17 records by flagging those
employees coded to the Afghanistan organization code who were not receiving danger pay;
identifying those employees who had been reassigned to a new post; and reviewing travel,
Orientation and In-Processing Center, 17 and training records to confirm the employees’ activities
during their transitioning period. OIG’s testing focused on when an employee left Afghanistan
(back end of the deployment cycle) and did not include the costs associated with training and
deploying employees for their assignment to Afghanistan (front end of the deployment cycle).
According to RM officials, the Department’s practice is to charge departing posts the front-end
costs when personnel leave for their new assignments.

        OIG found, based on its sample, that the interval between assignments for the personnel
who had left Afghanistan varied from 2 to 11 months. Nine of the 17 personnel selected for OIG
analysis were transitioning for at least 7 months between assignments. During the transitioning
process, personnel took home leave and attended training at the Foreign Service Institute.
Throughout this transitioning period, the salaries and benefits were charged to the supplemental
code for Afghanistan, which did not meet Congressional intent of the supplemental appropriation
because the charges did not support operations in or provide assistance for Afghanistan. For
example, one individual’s salary was paid using the Afghanistan supplemental appropriation for
a period of 10 months after the employee had left Afghanistan. During that period, the employee
attended the Foreign Service Institute for Polish language training in preparation for his next
assignment. Similarly, another of the 17 employees attended Indonesian language and Southeast
Asia training over a period of 8 months in preparation for her next assignment.

        The 17 Department employees identified by OIG were provided remuneration totaling
approximately $1.1 million for salary and benefits from the supplemental funds provided for
Afghanistan over an 11-month period. Although OIG identified the $1.1 million in back-end
costs, which should not have been included in supplemental appropriation costs, OIG did not
determine the front-end costs for those 17 individuals, as well as for the other 456 Department
personnel on the January 16–29, 2011, payroll. Therefore, the front-end costs could have offset
some, if not all, of the $1.1 million.

Organization Code Updating

        The Department, specifically HR, did not modify its procedures and instruct bureaus and
posts to immediately update GEMS for the change in organization code for incoming and
departing Afghanistan civilian uplift personnel. This updating is necessary to capture the full

16
   The remaining 40 personnel (513 minus 473) were other Government employees deployed to Afghanistan and
were paid through the International Cooperative Administrative Support Services (ICASS) system. ICASS is the
principal means by which the U.S. Government provides and shares the cost of common administrative support at its
more than 250 diplomatic and consular posts overseas.
17
   The Orientation and In-Processing Center is the central post in-processing point for U.S. Government employees
of all agencies deploying to Afghanistan.

                                                  8
                                             UNCLASSIFIED
                                       UNCLASSIFIED

cost of personnel deployed to Afghanistan. Based on the Principles of Appropriation Law, the
Department’s methodology to track and account for Afghanistan-specific supplemental funds in
the same manner as for routinely appropriated funds did not provide an accurate reflection of
costs associated with Afghanistan.

Use of Supplemental Funds

        The Department’s current procedures caused salary and benefit costs to be paid with
supplemental funds designated for Afghanistan and other front-line states and global activities
during the transitioning period, which did not meet the Congressional intent of the supplemental
appropriation. Accordingly, the front-end costs of training and preparation for civilian personnel
deploying to Afghanistan represented costs associated with the Afghanistan civilian uplift and
therefore should have been tracked and recorded as such to provide an accurate reflection of
costs associated with Afghanistan.

       Recommendation 1. OIG recommends that the Bureau of Human Resources, in
       coordination with the Bureau of Administration and the Bureau of Resource
       Management, codify, in the Foreign Affairs Manual, the Department of State
       (Department) practice of updating the Global Employment Management System for all
       Department personnel by changing the organization code to the code for the newly
       assigned posts effective on the date that the personnel leave post.

       Management Response and OIG Reply: HR did not respond to the recommendation;
       therefore, the recommendation is unresolved.

       Recommendation 2. OIG recommends that the Bureau of South and Central Asian
       Affairs immediately update the Global Employment Management System for all civilian
       uplift personnel leaving Afghanistan by changing their organization code to the code of
       their newly assigned posts effective on the date the personnel leave Afghanistan.

       Management Response: S/SRAP, responding on behalf of SCA, recommended that
       Recommendation 2 be considered “closed.” S/SRAP stated, “There are significant
       improvements in the reporting of employee departure dates from Afghanistan.”
       S/SRAP further stated that “Kabul’s HR and HR” have “repaired a technical issue in
       the systems interface” that resulted in “real-time reporting of departures of Foreign
       Service personnel assigned to Afghanistan.” Also, the Executive Director for SCA has
       “worked closely with . . . HR . . . to develop a ‘bridge’ between” the Afghanistan
       Civilian Tracking System and the WebPASS/Post Personnel system. According to
       S/SRAP, “full implementation” was to have begun on May 11, 2012, which “should
       resolve all issues relating to the change in the organization codes for all civilian
       personnel departing from Afghanistan.”

       OIG Reply: OIG considers the recommendation resolved, pending further action. This
       recommendation can be closed when OIG reviews and approves documentation showing
       that systems are reporting in real time and that implementation of the “bridge” between
       the two personnel tracking systems has been accomplished.


                                            9
                                       UNCLASSIFIED
                                             UNCLASSIFIED



           Recommendation 3. OIG recommends that the Bureau of Human Resources direct
           overseas posts and domestic offices that have civilian personnel being assigned to
           Afghanistan or to another post where restricted funds are being used to immediately
           update the Global Employment Management System by changing the organization code
           to the code of the newly assigned posts for incoming and departing Afghanistan civilian
           uplift personnel.

           Management Response and OIG Reply: HR did not respond to the recommendation;
           therefore, the recommendation is unresolved.

Accounting for and Reporting Security Costs
        OIG found that DS did not fully implement an account structure to budget and account
for expenditures made from supplemental appropriations received on June 24, 2009, which
designated $116.5 million for security programs in Afghanistan. This occurred because RM had
not established policies and procedures that required DS to account for security costs using a
designated country code for Afghanistan. Federal appropriations law 18 requires that
appropriations be applied only to the objects for which the appropriations were made. Without a
designated country code for Afghanistan, DS could not verify that the supplemental funds were
available, expended, or used for their intended purpose. To address the issue, DS, in January
2012, implemented a new mechanism, established by RM, to track and account for security costs
in Afghanistan and other front-line states. This mechanism mandated the use of project codes for
tracking obligations and costs. Increased guidance is needed, however, to ensure that users in the
bureaus understand the new methodology and are using it consistently.

       Federal appropriations law states, “Appropriations shall be applied only to the objects for
which the appropriations were made, except as otherwise provided by law.” Funds are
considered to be legally available for a given obligation or expenditure when the purpose is
authorized and within specific time limits and established amounts.

        The Federal Accounting Standards Advisory Board Statements of Federal Financial
Accounting Concepts No. 1 states that an objective of Federal Financial Reporting is Budgetary
Integrity. Specifically, Concept 1 states, “Federal financial reporting should provide information
that helps the reader to determine how budgetary resources have been obtained and used and
whether their acquisition and use were in accordance with the legal authorization.”

        Exhibiting guidance in budgetary integrity, the Department’s Foreign Affairs Manual
(FAM) 19 states that the control of appropriations is exercised by delegations of authority to issue
allotments. Allotments are made to officers at the major organizational level. “ Each official
who receives an allotment of funds is responsible for: (a) restricting obligations to the amounts
available in such allotments; (b) identifying an obligation with the applicable appropriation …
and allotment at the time it is incurred; [and] (c) certifying funds are available before the
applicable obligation documents are released and recorded [emphasis added].”
18
      31 U.S.C. § 1301(a).
19
     4 FAM 032.4-2, “Funds–Funds Control.”

                                                  10
                                             UNCLASSIFIED
                                              UNCLASSIFIED



       In June 2009, the conference committee allocated $116.5 million in supplemental
appropriations 20 for Worldwide Security Protection in Afghanistan, but DS did not establish a
country code to account for how those funds were to be used. Instead, DS placed the funds into
the Worldwide Security Protection Account, which is the primary account supporting DS global
operations. DS’s Chief Financial Officer stated that DS program offices were directed by the
Financial Plan, prepared by DS’s Financial Planning Division, to use these funds for Afghanistan
purposes only. To track the expenditures of these funds within the Department’s financial
system, GFMS, DS accounted for the funds by expense class (type of security, such as armored
vehicles or static guard services). DS did not perform a reconciliation to confirm that the
individual program offices used the supplemental funds for Afghanistan purposes only.
However, had a reconciliation of the expenditures provided to the Worldwide Security Protection
Account been performed, it would have shown that funds had been spent only for security
operations but not for the country associated with the costs because DS does not track costs in
that manner.

       DS officials stated that they do not track security costs by country because Department
guidance contained in the FAH 21 does not require costs to be tracked in that manner. The
guidance states:

           The use of bureau, office, and post organization codes is required for accounting
           purposes. The level to which subordinate organization codes (staffs, divisions,
           branches, and sections) are to be used for internal management reporting purposes
           is optional, unless their use has been specifically prescribed for Department-wide
           financial reporting.

        The Department’s guidance does provide bureaus with “the option” to account for costs
more specifically and beyond the bureau level, but, as structured at that time, GFMS would have
required significant manpower effort to account for the costs for Afghanistan. However, DS
officials advised OIG that GFMS has the capability to account for costs by country (that is,
Afghanistan) by using a project code field.

        When DS received its allotment of funds for security operations ($116.5 million) in FY
2009, it should have restricted obligations against those funds to ensure that the appropriated
funds were used for their intended purpose in Afghanistan. Since DS did not fully utilize an
account mechanism to identify expenditures related to Afghanistan and to check the availability
of funds at the time of obligation, DS was not able to restrict obligations to the amounts
available.

       During OIG’s exit conference, RM officials told the OIG audit team that RM had built
upon the existing system to track funding by country by expanding the system to encompass
additional point limitations and project codes tied to reporting categories to account for the
allotments, disbursements, and obligations of funds by country for operations within the front-


20
     H. R. Conf. Rep. No. 111-151.
21
     4 FAH-1 H-112-1(c), “Account Structure–Operations, Domestic and Abroad.”

                                                   11
                                              UNCLASSIFIED
                                              UNCLASSIFIED

line states. 22 Officials from RM/BP stated that the enhanced mechanisms had been implemented
in January 2012. Some guidance and requirements for the Department’s bureaus to use the new
account mechanism were provided to the OIG audit team by RM/BP, but no documentation of
the methodology had been published in the FAH. However, DS did provide OIG with the codes
assigned to DS by RM/BP. After the exit conference, DS submitted to OIG an accounting report
listing recently processed obligations that indicated use of the new codes.

        The fact that DS, as of January 2012, was fully utilizing an enhanced account mechanism
to identify expenditures related to Afghanistan is an important step in tracking and accounting
for security costs in Afghanistan and other front-line states. However, to continue this process,
DS, in coordination with RM, needs to provide the bureaus’ users with more specific information
on the execution of the improved methodology. Without this account mechanism being applied
consistently, the risk increases that funds could be spent for unauthorized purposes and could
exceed specified time limits and established amounts. As a result, the Department might not be
able to accurately report supplemental spending to the Congress and the American taxpayer, and
DS might not be able to provide assurance that the funds spent for security operations in
Afghanistan or for other front-line states were used for their intended purposes.

        Recommendation 4. OIG recommends that the Bureau of Diplomatic Security adopt a
        methodology to track and account for security costs specific to Afghanistan or for the
        costs of security in other front-line states in order to accurately report the extent to which
        funds designated for Afghanistan have been spent, to check the availability of funds, and
        to monitor the costs.

        Management Response: DS stated that it has, over the past 2 years, “enhanced the
        process” to track the funding of front-line states “more accurately and efficiently.” DS
        further stated, “Effective January 2012, at the direction of and in consultation with”
        RM, it “began using a Department-wide methodology to track and account for security
        costs specific to Afghanistan, Iraq, and Pakistan (AIP).” DS also stated, “All AIP
        funds are managed by a Financial Execution team that is dedicated to” the three
        countries.

        OIG Reply: OIG considers the recommendation resolved, pending further action. This
        recommendation can be closed pending OIG’s review and approval of documentation
        showing the continued use of the new methodology for accounting for and tracking
        Afghanistan security costs.

        Recommendation 5. OIG recommends that the Bureau of Resource Management, in
        coordination with the Bureau of Diplomatic Security, amend the Foreign Affairs
        Handbook (4-FAH-1 H-100) for Afghanistan and other front-line states to incorporate
        provisions in the Global Financial Management System to allow the coding necessary to
        track and account for security costs specific to Afghanistan and other front-line states.


22
  A front-line state relates to “a country bordering on or close to a hostile country or scene of armed conflict.”
(Source: Collins English Dictionary, < http://www.collinsdictionary.com/dictionary/english/front-line>, accessed on
March 2, 2012.)

                                                   12
                                              UNCLASSIFIED
                                            UNCLASSIFIED

           Management Response: RM requested that the recommendation “be removed from the
           audit report.” RM stated that since 2009, GFMS has had “sufficient tools that enabled
           bureaus to track any funds by country.” RM further stated that in 2010, the Department
           had “put in place additional mechanisms in GFMS” that allowed RM and other relevant
           bureaus, including DS and SCA, “to track and account for costs specific to Afghanistan
           and other front line states in even greater detail.” According to RM, these efforts “were
           expanded in 2012 with the appropriation of Overseas Contingency Operations (OCO)
           funds,” which used point limitations to aid in tracking funds allocated under
           appropriations and the mandatory use of project codes for Department operations
           activated on January 1, 2012. RM also discussed the input and guidance that it provided
           to many bureaus and offices on the improved methodology in the form of meetings,
           conference calls, and updates to the coding in the FAH.

           OIG Reply: OIG acknowledges implementation of the new tracking methodology.
           However, OIG believes, as specified in the recommendation, that RM, in coordination
           with DS, should document in the FAH the detailed policies and procedures that bureaus
           should adhere to when executing obligations for expenses within Afghanistan and other
           front-line states to track and account for security and other costs specific to Afghanistan,
           including the mandatory use of project codes and reporting categories.

           OIG considers the recommendation resolved, pending further action. This
           recommendation can be closed when OIG reviews and approves documentation showing
           that the guidance described has been published in the FAH.

                                            Other Matters

Management Controls Over Staffing Complement of Department Civilian
Personnel Assigned to Afghanistan
        During its fieldwork of the joint audit of the civilian uplift with SIGAR, OIG found that
the Department’s Afghanistan civilian staffing complement was not always accurate, complete,
and updated, as required by the FAH. 23 OIG identified 67 personnel (or 14 percent) of 496
personnel assigned to Afghanistan who were not included on the master list of Department
civilian personnel in-country. The discrepancies occurred because SCA’s newly implemented
database, the Afghanistan Civilian Personnel Tracking System, was not accurate or complete and
improvements were needed. As a result, there was an increased risk that civilian personnel in
Afghanistan might not be accounted for in the event of an emergency evacuation.

        OIG subsequently discussed this matter with SCA officials, who stated that the database
was being perfected to accurately and completely track the number of reported Department
civilian personnel assigned to Afghanistan. In January 2012, OIG followed up with SCA to
check on the progress being made to improve the database. SCA officials stated that they had
taken steps to ensure that their tracking system was accurate and up to date and were confident


23
     12 FAH-1 Annex K, “Drawdown and Evacuation.”

                                                 13
                                            UNCLASSIFIED
                                       UNCLASSIFIED

they had achieved their goals. Based on these assertions, OIG did not review the changes made
to the tracking system.

                Management’s Additional Comments to Report and
                     Office of Inspector General Responses

        In their responses to the report, the bureaus provided additional information that did not
relate directly to the recommendations. Some of that information has been incorporated into the
report as appropriate. However, management’s specific comments and OIG’s responses to these
comments are as described.

Department Use of Supplemental Funds

RM Comments

       RM, in its April 24, 2012, response to Recommendation 5 (see RM’s Appendix C in
Appendix D), also provided information on the report’s finding. The finding discussed the
Department’s use of supplemental funds and whether the funds met the Congressional intent of
the FY 2009 Supplemental Appropriations Act language.

        RM stated that the Supplemental Appropriations Act “provided additional appropriations
for Diplomatic and Consular Programs,” and it did not agree that the phrase in the report
“support operations in and assistance for Afghanistan,” which addresses the use of funds, “only
appears as it pertains to an authority to transfer [Diplomatic and Consular Programs] funds to
other agencies but does not limit the availability of . . . funding more generally.” Therefore,
according to RM, the funds appropriated under the Act as an additional amount for the funding
“are available for salary expenses of the Department.”

OIG Response

        Because Afghanistan was mentioned in the appropriation only in the context of
transferring money to other agencies to support operations and assistance for Afghanistan, the
language could be interpreted to mean that funding availability was not limited. However, the
accompanying conference report to the appropriation included $997.9 million for Diplomatic and
Consular Programs “to support operations and security requirements for Afghanistan, Pakistan,
and Iraq.” In addition, the funds supported increased requirements for selected global activities.
The allocation table contained in the conference report shows that funding for Afghanistan made
up over 40 percent of the total allocated funds. OIG therefore concluded that the Congress
intended the funding to be used for expenditures related to Afghanistan, Pakistan, and Iraq but
did not intend the funding to be used for expenditures for personnel leaving Afghanistan for a
routine reassignment to a country outside of Afghanistan, Pakistan, or Iraq. Language from the
conference report clarifying the Congress’s intent regarding the funding has been incorporated
into the report. (See the section “Federal Law and Conference Report on the Diplomatic and
Consular Programs Supplemental Appropriation.”)



                                            14
                                       UNCLASSIFIED
                                        UNCLASSIFIED


                                 List of Recommendations
Recommendation 1. OIG recommends that the Bureau of Human Resources, in coordination
with the Bureau of Administration and the Bureau of Resource Management, codify, in the
Foreign Affairs Manual, the Department of State (Department) practice of updating the Global
Employment Management System for all Department personnel by changing the organization
code to the code for the newly assigned posts effective on the date that the personnel leave post.

Recommendation 2. OIG recommends that the Bureau of South and Central Asian Affairs
immediately update the Global Employment Management System for all civilian uplift personnel
leaving Afghanistan by changing their organization code to the code of their newly assigned
posts effective on the date the personnel leave Afghanistan.

Recommendation 3. OIG recommends that the Bureau of Human Resources direct overseas
posts and domestic offices that have civilian personnel being assigned to Afghanistan or to
another post where restricted funds are being used to immediately update the Global
Employment Management System by changing the organization code to the code of the newly
assigned posts for incoming and departing Afghanistan civilian uplift personnel.

Recommendation 4. OIG recommends that the Bureau of Diplomatic Security adopt a
methodology to track and account for security costs specific to Afghanistan or for the costs of
security in other front-line states in order to accurately report the extent to which funds
designated for Afghanistan have been spent, to check the availability of funds, and to monitor the
costs.

Recommendation 5. OIG recommends that the Bureau of Resource Management, in
coordination with the Bureau of Diplomatic Security, amend the Foreign Affairs Handbook (4-
FAH-1 H-100) for Afghanistan and other front-line states to incorporate provisions in the Global
Financial Management System to allow the coding necessary to track and account for security
costs specific to Afghanistan and other front-line states.




                                             15
                                        UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                     Appendix A
                                  Scope and Methodology
        This audit was conducted as a follow-on audit to the joint audit conducted by the Special
Inspector General for Afghanistan Reconstruction (SIGAR) and the U.S. Department of State
(Department), Office of Inspector General (OIG): The U.S. Civilian Uplift in Afghanistan Has
Cost Nearly $2 Billion and State Should Continue to Strengthen Its Management and Oversight
of the Funds Transferred to Other Agencies (SIGAR Audit-11-17 and State OIG AUD/SI-11-45
Civilian Uplift, September 8, 2011). OIG conducted this limited-scope audit to determine the
effectiveness of the Department’s accounting, management, and reporting of Afghanistan
civilian uplift costs specific to payroll operations; Bureau of Diplomatic Security (DS) controls
over funds; and management controls over the staffing complement of Department personnel
assigned to Afghanistan.

        OIG performed fieldwork for this audit from August 2011 to January 2012 in the
Washington, DC, metropolitan area, as well as at the Bureau of Resource Management’s (RM)
Global Financial Services in Charleston, SC. OIG conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
OIG plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for the findings and conclusions based on the audit objective. OIG believes that the
evidence obtained provides a reasonable basis for its findings and conclusions based on the audit
objective.

       To obtain background and criteria for the audit, OIG researched and reviewed relevant
laws that authorized funding for civilian uplift efforts in Afghanistan. OIG also reviewed the
Department’s Foreign Affairs Manual (FAM) and Foreign Affairs Handbook (FAH);
Department cables; Office of Management and Budget circulars; and Government
Accountability Office (GAO) guidance related to the Department’s payroll system for personnel
assigned to posts, controls over tracking Department personnel assigned to posts, and bureau
funds controls and interagency transfer requirements.

        For this limited-scope audit, OIG judgmentally selected for review one payroll period,
pay period No. 2 in 2011 (January 16–29, 2011), to determine whether a condition existed that
might have warranted management’s attention to ensure that appropriated funds were being used
as intended for the Afghanistan civilian uplift personnel payroll. The OIG audit team had
already received the payroll records for pay period No. 2 and No. 12 (June 5–18, 2011) as a
result of its preliminary work performed during the previous joint audit, which provided the
impetus for this follow-on audit. Rather than request payrolls for additional pay periods, the
team used an already-available payroll to reduce the burden on the auditee as well as to expedite
this limited-scope audit, which covered several aspects of the Department’s accounting,
management, and reporting of Afghanistan civilian uplift costs. Pay period No. 2 was selected
because it was a relatively early period in the year when compared with the timeframe of pay
period No. 12. Therefore, sufficient time had elapsed to enable the Department to make any
adjustments, if necessary, to properly account for Department payroll costs under the
Afghanistan supplemental appropriation. The results of OIG’s review of the payroll for pay



                                            16
                                       UNCLASSIFIED
                                       UNCLASSIFIED

period No. 2, which contained 513 records, of which 473 records were of Department
employees, are detailed in the Audit Results section of this report.

        OIG interviewed and obtained documentation from officials in DS to identify fund
control procedures and documents used by DS to manage the allocation of funds within and
between DS accounts. OIG also interviewed officials in the Bureau of South and Central Asian
Affairs (SCA) and obtained a list of civilian personnel in Afghanistan to determine the accuracy
and completeness of the list and to address the causes for any discrepancies between SCA’s
February 2011 list of civilian personnel in Afghanistan and the Department’s payroll list of
personnel assigned to Afghanistan during pay period No. 2 in 2011. In addition, OIG
interviewed and obtained documentation from the Bureau of Human Resources (HR) and RM to
determine the arrival and departure procedures and dates, as well as the payment process, for
civilian uplift personnel in Afghanistan.

Use of Computer-Processed Data

        OIG used a significant amount of computer-processed data during this limited-scope
audit and assessed the reliability of these data primarily via corroboration with source
documentation for its review of Department employees who were assigned to Afghanistan per
the payroll for pay period No. 2. These documents included Standard Forms 50, Notification of
Personnel Action; TM5, travel message departure from post notice; TM8, travel message arrival
at post notice; time and attendance sheets; and travel vouchers. OIG believes that the data were
sufficiently reliable for the purposes of this report.

Review of Internal Controls

         OIG performed steps to assess the adequacy of internal controls related to the areas
audited. For example, OIG gained an understanding of the Department’s processes for the
payment of salaries and benefits of civilian uplift personnel assigned to Afghanistan. The OIG
team also discussed discrepancies identified during its comparison of SCA’s February 2011 list
of civilian uplift personnel in Afghanistan and the list of personnel assigned to Afghanistan and
paid through the American salaries account during pay period No. 2 in 2011. Additionally, OIG
reviewed Federal guidance, such as that contained in Federal Appropriations Law, for applicable
policies and procedures to determine whether appropriated funds were legally available for
purposes of obligation or expenditures and to ascertain whether certain internal controls were in
place for accurately tracking Department personnel assigned to posts. OIG also reviewed
Department guidance, such as the FAM, the FAH, and Department cables, to determine whether
appropriated funds were being used as intended for the Afghanistan civilian uplift personnel
payroll and whether DS maintained adequate controls over the allocation and allotment of funds.
OIG’s conclusions are presented in the Audit Results section of this report.




                                            17
                                       UNCLASSIFIED
                                     UNCLASSIFIED

                                                                                         Appendix B




                                                     United States Department of State

                                                     Washingtm., D.C. 20520

UNCLASSIFIED                                         April 23, 2012

TO:          Office of the Inspector General
             Evelyn R. Klemstine, Assistant inspector General for Audits
             klemstinee@state.gov

FROM:        S/SRAP - Frank Ruggiero ~f\.r

SUBJECT: Comment on Draft Report on Limited-Scope Audit of the Department
         of State Managemelll of the Afghanistan Civilian Uplift

REF:         Draft Report Number AUD/SI-XX-XX, March 2012


      S/SRAP appreciates the opportunity to comment on Recommendation 2 of .
the Draft Limited-Scope Audit of the Department of State Management of the
Afghanistan Civilian Uplift.

      " Recommendation 2. OrG recommends that the Bureau of South and
Central Asian Affairs immediately update the Global Employment Management
System for all civilian uplift personnel leaving Afghanistan by changing their
organization code to the code of their newly assigned posts effective on the date
the personnel leave Afghanistan."

       There are significant improvements in the reporting of employee departure
dates from Afghanistan . Kabul HR and the HR Bureau have repaired a technical
issue in the systems interface between WebPASS/Post Personnel data maintained
at post and the Global Employment Management System (GEMS) maintained by
the HR Bureau. This has resulted in real-time reporting of departures of Foreign
Service personnel assigned to Afghanistan. Additionally, NEA-SCA/EX has
worked closely wi th the HR Bureau to develop a "bridge" between the Afghanistan
Civilian Tracking System (ACfS) which is managed by NEA-SCA/EX and
WebPASS/Post Personnel. Full implementation begins on May 11 ,2012 and this
should resolve all issues relating to the change in the organization codes for all



                                 UNCLASSIFIED




                                          18
                                     UNCLASSIFIED
                                    UNCLASSIFIED




civilian personnel departing from Afghanistan.

      We recommend that the status of Recommendation 2 be changed to
"closed".




                                UNCLASSIFIED




                                         19
                                    UNCLASSIFIED
                                UNCLASSIFIED


                                                                                   Appendix C




                                                    United States Department of Slale

                                                    Wash ington. D.C.    20520


                                                          APR 2 6 2012




UNCLASSIFIED

INFORMATION MEMO TO OIG - ASSISTANT INSPECTOR GENERAL
FOR AUDITS EVELYN KLEMSTINE

FROM:         OS - Gentry O. Smith,   Acting!~
SUBJECT: Limited-Scope Audit of Department of State Management of the
         Afghanistan Civilian Uplift

       Thank you for the opportunity to review and comment on the subject draft
report. Attached please find OS comments on the draft report along with a copy of the
report with OS's suggested edit noted in strike-through text and associated comments.




Attachment:

      OIG Draft Report


        NOTE: The Bureau of Diplomatic Security's attached "OIG Draft
        Report" was not included by the Office of Inspector General.
        However, this attachment is available upon request.




                                     20
                                UNCLASSIFIED
                                         UNCLASSIFIED




                 DS Comment on OIG Draft Report
    Limited-Scope Audit of Department of State Management of the
                    Afghanistan Civilian Uplift
                  (AUD/SI-XX-XX, March 2012)

Recommendation 4: 01G recommendl' that the Bureau ~fDiplomatic Security (DS) adopt a
methodology to track and account for security costs specific to Afghanistan or for the costs of
security in otherfront-line stales in order to accurately report the extent to wh'ichjimd,   .
designatedfor Afghanistan have been spent, to check the availability o/funds. and to monitor
the costs. (Action: Diplomatic Security) (page 10)

DS Comment: Over the past two years, DS enhanced the process to track front-line states
funding more accurately and efficiently. Effective January 2012, at the direction of and in
consultation with the Bureau of Resource Management (RM), DS began using a Department-
wide methodology to track and account for security costs specific to Afghanistan, Iraq, and
Pakistan (AlP).

Afghanistan funds are allotted by Enduring and Overseas Contingency Operations (OCO).l
The Enduring funds are allotted to DS by State Programs, Operations and Budget (RMlBP)
under appropriation ID 19_X0113000H, and the OCO portion is allotted to DS by RM/BP
under appropriation ID 19_XO 113000T. Point T is also used for Pakistan funding.
Appropriation 19_230 113000E is for Iraq-Enduring funds and 19_230113000EC for Iraq-
OCO funds. All front-line states funding is allotted to DS by project codes. The use of project
codes for obligated funds is mandatory. (see Appendix A - AlP Account Structure.)

Since the Point T appropriation funds cover more than Afghanistan and Pakistan, DS established
reporting categories to help track the country specific costs. (See Appendix A.) This account
structure allows DS to run reports directly from the Data Warehouse and track these costs via
separate allocation sheets and cuff record systems. Points E and EC are used exclusively for
Iraq. All AlP funds are managed by a Financial Execution team that is dedicated to AlP.




'OCO funds were appropriated to the Department of State for the first time in FY 2012 pursuant to
PL 112-74.




                                              21
                                         UNCLASSIFIED
                                                                                     UNCLASSIFIED




                                                                                                                                                  • •
                                        Project                      Reporting                                                                  Project                      Reporting
            Site                                                                                                   Site
                                          Code                        category                                                                    Code                       category
                                                                                                                                               BPFLS003
        Baghdad                        BPFLSOO3                         DS8101                                 Baghdad                                                         058101
                                                                                                                                               BPFlSOOS
                                                                                                                                               BPFLS003
        Erb il                         BPFLS003                        D58102                                  Erbil                                                           058102
                                                                                                                                               BPFLSOOS
                                                                                                                                               BPFL5003
        Kirkuk                         BPFLS003                        D58103                                  Kirkuk                                                          058103
                                                                                                                                               BPFLSOOS
                                                                                                                                               BPFL5003
        Basrah                         BPFL5003                        D58104                                  Basrah                                                         OS8104
                                                                                                                                               BPFLSOOS




                                                                                                                                                 • •
                                        Proj ect                     Reporting                                                                  Project                     Reporting
           Site                                                                                                   Site
                                         Code                         Category                                                                   Code                        category
        Islamabad                      BPFLSOO3                        058201                                  Islamabad                       BPF LS003                      058201
        Karachi                        BPFLS003                        058202                                  Karachi                         BPFLS003                       DS8202
        lahore                         BPFLSOO3                        D58203                                  lahore                          BPFLSOO3                       DS8203
        Peshawar                       BPFLS003                        DS8204                                  Peshawar                        BPFLSOO3                       D58204




                                        Project                      Reporting                                                                 Project                      Reporting
           Site                                                                                                   Site
                                         Code                        Category                                                                    Code                        category
        Kabu l                         BPFLS003                        DS8301                                  Kabul                           BPFLS003                       058301
        Her at                         BPFLSOO3                        OS8302                                  Herat                           BPFLS003                       058302
        Mazar                          BPFL5003                        058303                                  Mazar                           BPFLS003                       058303
        Kandahar              Not active for FY 2012                                                           Kandahar                 Not active for FY 2012
       Jalalabad              Not acrive for FY 2012 and FY 2013                                              Jalalabad                 Nat active for FY 2012 and FY 2013
NOTE: t':' ,I'.:iv'" ,t.,]! LA '(JS:V,':v .il,L'," ,11"" ,8"1: _SlZ'? .1 ,~. :"1:"I;rn '::r·..>\.>1 ';t, ~ V\..ofl!,1'E':1 SP~             'tt)·,. ;'fOjt"·· 'r>dt'~ ;! ~ ibt.!d !J~low fu t
"'r·.'~('~"': ", 1":,lH~f"·' I, II __ ~'~ \:: '::c .;JOj.iI .';" ,i".1-'~ ~r(, ~I..(''' -',f" :iHe~I.,v· : clJ;:c:,;it~C' l'I;'.{'\'!

           Code                   Description                                                                                                 Code/'D'                         # Digits
        BPFl5001                 Mission Operations/Other Support Activities                                                            Appropriation 10                          1"
        BPFLSOO2                 l ogistical Support                                                                                    Project Code                              8
        BPFLSOO3                 ;l'Cllnt',                                                                                             Reporting Category
        BPFlSOO4                 ! nfo~mation    Technology
        BPFlSOC5




                                                                                          22
                                                                                     UNCLASSIFIED
                                UNCLASSIFIED


                                                                                                Appendix D




                                                   ( 1",:( h"",w"tI        (Jlli,"'"

                                                   \I f/ .,1" "!:""'. J) . (   .   :!IJ,i:!1J


UNCLASSIFIED                                       APR 242012
MEMORA NDUM                               NOTE: In its response, the Bureau of Resource
                                          Management attached a copy of the draft report
TO:

FROM:
            OIG - Harold W. Geisel

            RM - James L. Millette
                                   r-     with its suggested comments. This attachment
                                          has not been included by the Office of Inspector
                                          General. However, the attachment is available
                                          upon request.
                                          ~--~~------------------~
SUBJECT : OIG Draft Limited-Scope Audit of Department of State
          Management of the Afghanistan Civilian Uplift AU D/SI-XX-
          XX March 2012


In response to the OIG Draft Limited-Scope Audit of Department of State
Management of the Afghanistan Civilian Uplitl, Resource Management
(R M) offers the following responses.

Recommendation 5. OIG recommends that the Bureau of Resource Management .
in coordination with the Bureau of Diplomatic Security, amend the Foreign Affa irs
Handbook (4-FAH H-I 00) for Afghanistan and other front line states to
incorporate provisions in the Global Financial Management System to allow the
coding necessary to track and account for security costs specific to Afghanistan
and other fron t line states.

Summary
In FY 2009, the Department ' s Global Financial Management System (GFMS) had
sufficient tools that enabled bureaus to track any funds by country. Since FY
2010, the Department of State has put in place additional mechanisms in GFMS,
which are also reflected in 4-FAH provisions. that allow the Bureau of Resource
Management (RM) and relevant bureaus, including but not limited to the Bureau of
Diplomatic Security (DS) and the Bureau of South and Central Asian Affairs
(SCA), to trac k and account for costs specifk to Afghanistan and other front line
states in even ~'feater detail. These efforts were expanded in FY 2012 wi th the
appropriation of Overseas Contingency Operations (OCO) funds . The Depart ment



                                 UNCLASSIFIED




                                     23
                                UNCLASSIFIED
                                              UNCLASSIFIED



                                              UNCLASSIFIED
                                                       -2-

requests "Recommendation 5" be removed from the audit report, and that the
associated findings be revised to reflect this fact.

Overview of Steps Taken
When the Department was appropriated front line states funding in the FY 2010
supplemental (P.L. 111-212), it established "point limitations" (unique identifiers
attached to an appropriation symbol) for Iraq (Pt EE), Afghanistan (Pt AA), and
Pakistan (Pt BB). The Department also established point limitations to aid tracking
of funds allocated under regular appropriations, i.e. non-supplemental funding
(Iraq is Pt E, Afghanistan is Pt A, and Pakistan is Pt B). These point limitations
were used throughout FY 2011 to track front line states funding. 4-FAH and
GFMS both were updated accordingly.

In the Summer 20 I I, when it became clear the Department would be appropriated
Overseas Contingency Operations (OCO) funding for the front line states in FY
2012, it touk steps to update the processes by which front line states funding would
be executed. One of the primary goals of the updated processes was to ensure that
the Department could track funding not only by OCO and enduring, but the five
major Congressional reporting categories, of which "Security" is one. New OCO
point limitations were established, including Point T for "Security" funds for
Afghanistan. Further, the Department instituted the mandatory use of project
codes for State Operations front line states OCO and enduring funding. I
(Appendix A provides a list of the project codes and how they align with the
reporting categories. Project Code BPFLS004 is "Security". It is used primarily
by OS.)

The oeo point limitations and mandatory use of project codes for State
Operations was activated on January I, 2012, immediately after the FY 2012
appropriations bill (P.L. 112-74) was signed into law. The Foreign Affairs
Handbook (4-FAH) was updated to retlect the OCO point limitations. GFMS and
associated systems began processing transactions with the applicable project codes.

The establishment oroco point limitations and the decision to make project code
use mandatory was a collaborative effort. Many bureaus and offices, including the
Office of the Chief Financial Officer; the Office of the Deputy Chief Financial
Officer; the Office of State Programs, Operations and Budget (RM/BP); OS, SCA,
and the Bureau of Near Eastern Affairs, as well as financial management officers
I The project codes were made mandatory by placing them aboVe! the allotment in the budget hierarchy. TIlis means

that burcl:!.us must use rhe project code when making an obligation . Without the project code, the bureau cannot
complete;: the obligation in GFMS.


                                              UNCLASSIFIED




                                                   24
                                              UNCLASSIFIED
                                 UNCLASSIFIED



                                   UNCLASSIFIED
                                          -3-

from Baghdad, Kabul, and Islamabad, provided input and guidance on the new
policies and procedures. More than two dozen meetings and conference calls were
held on this subject and RM/BP representatives hosted a breakout session at the
annual NEA/SCA budget planning conference on the use of project codes. The
Bureau of Resource Management included a section outlining the new policies and
procedures, in its FY 2012 execution guidance to all bureaus (Appendix B).

Conclusion
The Department requests that the Office of the Inspector General (OIG) remove
"Recommendation 5" from its limited-scope Audit of Department of State
management of the Afghanistan Civilian Uplift (AUD/SI-XX-XX).

FY 2012 is the third year during which the Department has had a methodology to
track and account for all security (and operational) costs specific to Afghanistan
and other front line states. This process has continued to be improved and
strengthened over the past two years, ensuring greater transparency and efficiency
in tracking and accounting for enduring and OCO front line states funding.
However, these measures were intended to assist bureaus in tracking specific
funding, but similar tools were available for bureau level use prior to FY 2010.

Moreover, the Department' s most recently updated policies associated with front
line states funding were implemented on January I, 2012 - three months prior to
the draft report's issuance. These policies built on two years of establ ished
practices for tracking front line states funding. The Department was not afforded
the opportunity to demonstrate the steps it has taken until one day prior to the draft
report's completion. Had orG engaged RM/8P, DS, and others about this issue
over the past six to eight months, the Department would have provided details on
the steps it was taking to amend 4-F AH and incorporate provisions in GFMS to
track and account tor security costs (and operational costs) associated with
Afghanistan and other front line states .

The Department, of its own volition, established and codified the appropriate
framework lor tracking front line states funding. Coupled with the fact that ora
did not seek information about the Department's tracking of front line states
funding, it is only appropriate that Recommendation 5 bc removed from the report.

RM appreciates the opportunity to comment on the report. The operational poim
of contact is Paul McVicker. He may be reached by email at
mcvickerpi@stale.gov or by phone at (843) 202-3858.


                                   UNCLASSIFIED




                                      25
                                 UNCLASSIFIED
                                                                                    UNCLASSIFIED




I                                                                                                 APPENDIX A                                                                                                 I
                                                                                oeo PROJECT CODes FOR FRuNT LINE         STATE~


Pro"eel Code                        IraQ IPolnts: EO}                Project Code                Afohanistan IPolnts: AO, AP   n         Project Code                 Pakistan fPoints : BO, BP. n
BLFlSOOl       Miss ion Operations/Other Support Activities          BlFLSODl       Mission Operations/Other Support Activities          BLFLSOOI       Miss ion Operations/Other Support Activities

BPFLSOO2       Logistical Support                                    BPFLSOO2       Logistical Support                                   BPFLSOO2       Logistical Support

BPFLSOO3       Security                                              BPFLSOO3       Security                                             BPFlSOO3       Security

BPFLSOO4       Information Technology                                BPFlSOO4       Informat ion Technology                              BPFLSOO4       Information Technology

BPFlSOO5       Interim Consulate/E BC Dps/Temporary Infrastructure   BPFLSOO5       Interim Consulate/EBC Ops/Temporary Infrastructure   BPFLSOO5       Interim Consulate/ESO OpsiTemporary Infrastructure

                                                                             ENDURI NG PROJECT CODES FOR FRONT LINE STATES

Pro"ect Code                       Iraq (Point EI                    Project Code                Arqhanistan (Point A, 7A, HI            Pro"ect Code                  Pakistan IPoint B 7B, HJ
BlFlSOOI       Mission Operations/Other Support Activities           BLFLSOOI       Mission Operations/Other Support Activities          BLFLSOOl       Mission Operations/Other Support Activities

BPFLSOO2       Logistical Support                                    BPFLSOO2       Logistic al Support                                  BPFLSOO2       Logistical Support

BPFLSOO3       Security                                              BPFLSOO3       Security                                             BPFLSOO3       Security
                                                                                     PhysicalfTechnical Security

BPFLSOO4       Information Technology                                BPFLSOO4       Infonnalion Technology                               BPFLSOO4       Information Techn ology

BPFLSOO5       Interim Consulate/EBO OpslTemporary infrastructure    BPFLSOO5       Interim Consulate/EBO Ops/Temporary Infrastructure   BPFLSOO5       Interim Consulate/EBO OpslTemporary Infrastructure




                                                                                         26
                                                                                    UNCLASSIFIED
                                   UNCLASSIFIED




                                  APPENDIXB

UNCLASSIFIED

MEMORANDUM

TO:             All Assistant Secretaries and Bureau Executive Directors

FROM:           RM - James L. Millette

SUBJECT:       FY 2012 Financial Plan Guidance


       This memorandum transmits guidance for the development ofthe
FY 2012 financial plans for State Operations accounts. The Department is
operating under a Continuing Resolution through November 18, 2011. We need to
update our initial recommendations for the FY 2012 Financial Plan now to use as a
basis for continued operations.

     The requested information is due on the dates specified.   Bureaus should
submit (as applicable):

   1. Administrative Efficiency Savings Tracking Template (due October 28,
      2011)
   2. Going rate analysis data within the Diplomatic and Consular Programs
      (D&CP) appropriation (due November 4,2011);
   3. Post Resources - for regional bureaus only (due November 4,2011).

      The RMlBP website will open for bureaus with D&CP-funded programs on
October 21, 20 II. Please ensure that your bureau enters the requested information
by the due date above to allow sufficient time to prepare an integrated plan.

      In addition to the above, guidance is also provided regarding inter-bureau
payments and transactions. The guidance requires all bureaus, regardless of
funding source, to submit planned domestic renovations to AlOPR and RMlBP.

      Should you have any questions, or should you require additional
information, please contact the RMlBP analyst assigned to your account. We look
forward to working with you as we formulate the Department's Initial FY 2012
D&CP Financial Plan.




                                        27
                                   UNCLASSIFIED
                             UNCLASSIFIED




Attachments:

      A.    Operating Assumptions under a Continuing Resolution
      B.    FY 20 12 Financial Plan Guidance - Initial D&CP Financial Plan
      C.    FY 20 12 Financial Plan Guidance - FTE Purchases
      D.    FY 20 12 Financial Plan Guidance - Funding for Iraq
            Operations
      E     Guidance for Inter-Bureau D&CP Payments and Fee-for-Service
      F.    Guidance on Domestic Renovations and Information Technology
      G.    ExecutingiTrackinglReporting of Administrative Efficiency Savings
            and Campaign to Cut Waste Initiative
      H.    Executing Overseas Contingency Operations (OCO) Resources
      1.    Executing FY 201112012 Carryforward and Recoveries
      J.    FY 2012 Financial Plan Calendar


cc:   All Bureau Budget Officers




                                  28
                             UNCLASSIFIED
                                         UNCLASSIFIED




                                            Attachment H

          Executing Overseas Contingency Operations (OCO) Resources

      The Department anticipates that the FY 2012 full year appropriation will
include funding under the title Overseas Contingency Operations (OCO) within the
Diplomatic and Consular Programs (D&CP) account and the Office ofthe
Inspector General (OIG) account [I]. The OCO account provides a clear delineation
between funds used for activities and programs that are temporary in nature and
extraordinary in cost, beyond "normal" ongoing diplomatic operations.

       Given the high level of interest in how the Department will execute OCO
funds, RMIBP is working to develop options to maximize the efficiency and
effectiveness with which OCO is executed.

       In developing the plan for executing OCO, project codes and possibly
function codes will be established. The use of project codes will be mandatory to
obligate OCO funds in RFMS and GFMS .

      Further guidance will be provided pending decisions by OMB, Congress and
the Department on how to execute OCO funds .




 In the FY 2012 HACFO mark-up, OCO is not specified by name. The House provides "an additional amount" for
]1J
D&CP under the "Title VllI: Global War on Terrorism." Funds appropriated under Title VIII would be considered
OCO funds and would be executed as such.




                                              29
                                         UNCLASSIFIED
                                     UNCLASSIFIED




                                           Appendix C

OrG's draft limited-scope audit of Department of State Management of Afghanistan Civilian
Uplift (March 2012) raises an issue concerning funding payroll costs of civilians transitioning
out of assignments in Afghanistan. The draft report states that" ... by following its routine
procedures to reimburse the payroll costs during the period in which an employee was
transitioning to a new post, the Department used funds that were designated to 'support
operations in and assistance for Afghanistan,' which did not meet the Congressional intent of the
appropriation." pp. 1-2,5, see also p. 5 ("The Afghanistan Supplemental appropriation
authorized the Department to use funds appropriated to 'support operations in and assistance for
Afghanistan. " ') As described below, we believe the draft report needs to be substantially revised
to more precisely reflect the language of the FY 2009 Supplemental Appropriations Act (P.L.
111 -32). We also do not believe the report provides adequate substantiation for the claim that
the Department's use of funds did not meet the Congressional intent of the appropriation. As
such, we believe that any suggestion that the Department has violated 31 U.S.C . 1301 (a) is
unfounded as it concerns funding payroll costs of civilians transitioning out of assignments in
Afghanistan.

       The FY 2009 Supplemental Appropriations Act (P.L. 111 -32) provided additional
appropriations for "Diplomatic and Consular
Programs" (D&CP):

"For an additional amount for "Diplomatic and Consular Programs", $997,890,000, to remain
available until September 30, 2010, of which $146,358,000 is for Worldwide Security Protection
and shall remain available until expended: Provided, That the Secretary of State may transfer up
to $137,600,000 of the funds made available under this heading to any other appropriation of any
department or agency of the United States, upon the concurrence of the head of such department
or agency, to support operations in and assistance for Afghanistan and to carry out the provisions
of the Foreign Assistance Act of 1961.. .."

Contrary to the suggestion in the draft Report, the supplemental appropriation language for
D&CP is not limited to "support operations in and assistance for Afghanistan". That phrase only
 appears as it pertains to an authority to transfer D&CP funds to other agencies, but does not
limit the availability ofD&CP funding more generally. Further, as GAO has stated, a
supplemental appropriation "supplements the original appropriation" and "partakes of its
nature". GAO Redbook Vol. II (3d ed.) 6-159, 160. Here, it is beyond dispute that D&CP is the
proper appropriation account to pay the payroll costs in question. Thus, in the absence of any
specific limitation in the FY 2009 Supplemental Appropriations Act, the funds appropriated
under that Act as an additional amount for D&CP are available for salary expenses ofthe
Department.

The FY 2009 Supplemental Appropriations Act contains the following general provision:

"ALLOCATIONS




                                          30
                                     UNCLASSIFIED
                                      UNCLASSIFIED




SEC. 1103. (a) Funds appropriated in this title for the following accounts shall be made available
for programs and countries in the amounts contained in the respective tables included in the joint
statement accompanying this Act:
    (I) "Diplomatic and Consular Programs"

(b) For the purposes of implementing this section, and only with respect to the tables included in
the joint statement accompanying this Act, the Secretary of State and the Administrator of the
United States Agency for International Development, as appropriate, may propose deviations to
the amounts referenced in subsection (a), subject to the regular notification procedures of the
Committees on Appropriations and section 634A of the Foreign Assistance Act of 1961."

The joint explanatory statement accompanying the act (H. Rept. 111 -151) includes a table that
allocates $159.1 million for "Afghanistan operations". As such, pursuant to section 1103 of the
FY 2009 Supplemental Appropriations Act, the Department was to allocate $159.1 million of the
supplemental amount appropriated to D&CP for "Afghanistan operations". Section 1103 also
permits the Department to reprogram such funds for other purposes within D&CP, subject to
regular congressional notification procedures. Neither section 1103 or the joint explanatory
statement contains any additional limitation relevant to the issue of payro II costs.

There is nothing in the FY 2009 Supplemental Appropriations Act or its accompanying
legislative history that suggests any Congressional intent to deviate from the Department's
standard practice of having departing posts fund payroll costs of employees transitioning to a
future assignment. As the draft Report recognizes, the Department's practice has been to fund
payroll expenses for Department personnel transitioning to a new assignment from the departing
post's D&CP allotment. To the best of our knowledge, the oro has never questioned this
practice of treating payroll expenses of transitioning employees as properly funded by the
departing post.

While the draft Report appears to suggest that it would have been appropriate to fund the payroll
expenses of an employee transitioning to Afghanistan prior to their arrival at post, the oro report
fails to justify why such expense would constitute an appropriate expenditure under the FY 2009
Supplemental Appropriations Act, while funding transition costs on the other end would not. In
the absence of any indicia of legislative intent, it arguably would have been inappropriate for the
Department to deviate from its standard practice and institute a separate system for funding
transitional payroll costs for personnel serving tours in Iraq and Afghanistan. While oro may
fairly question whether, as a managerial best practice, the departing post, as opposed to the
receiving post, should fund transitional payroll expenses, the Department does not believe that
there are legitimate grounds to question the legality of the Department's decision to fund
transitional payroll expenses related to Afghanistan using FY 2009 Supplemental D&CP funds.




                                           31
                                      UNCLASSIFIED
                                      UNCLASSIFIED


Major Contributors to This Report

Regina Meade, Director
Security & Intelligence Division
Office of Audits

Bill Irving, Auditor Manager
Security & Intelligence Division
Office of Audits

Frank Forgione, Senior Auditor
Security & Intelligence Division
Office of Audits

Alisha Chugh, Auditor
Security & Intelligence Division
Office of Audits

Timothy Neal, Auditor
Middle Eastern Regional Directorate
Office of Audits

Christopher Yu, Management Analyst
Security & Intelligence Division
Office of Audits

Craig Stafford, Audit Intern
Security & Intelligence Division
Office of Audits




                                           32
                                      UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                      HOTLINE
                     202/647-3320
                  or 1-800-409-9926
        to report illegal or wasteful activities.


               You may also write to
             Office of Inspector General
              U.S. Department of State
               Post Office Box 9778
                Arlington, VA 22219

       Please visit our Web site at oig.state.gov

           Cables to the Inspector General
          should be slugged “OIG Channel”
              to ensure confidentiality.
UNCLASSIFIED




UNCLASSIFIED
